                                   SOCIAL SECURITY
MEMORANDUM

Date:   May 4, 2011                                                   Refer To:

To:     Michael Grochowski
        Regional Commissioner
         Atlanta

From:   Inspector General

Subject: Administrative Costs Claimed by the South Carolina Disability Determination Services
        (A-04-10-10178)


        The attached final report presents the results of our review. Our objectives were to
        evaluate the South Carolina Disability Determination Services’ (SC-DDS) internal
        controls over the accounting and reporting of administrative costs; determine whether
        the SC-DDS claimed allowable costs and accurately allocated and properly drew down
        funds; and assess limited areas of the general security controls environment. Our audit
        included the administrative costs SC-DDS claimed during Federal Fiscal Years 2008
        and 2009.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  ADMINISTRATIVE COSTS CLAIMED BY
   THE SOUTH CAROLINA DISABILITY
      DETERMINATION SERVICES


      May 2011    A-04-10-10178




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   May 4, 2011                                                    Refer To:

To:     Michael Grochowski
        Regional Commissioner
         Atlanta

From:   Inspector General

Subject: Administrative Costs Claimed by the South Carolina Disability Determination Services
        (A-04-10-10178)


        OBJECTIVE
        Our objectives were to evaluate the South Carolina Disability Determination Services’
        (SC-DDS) internal controls over the accounting and reporting of administrative costs;
        determine whether the SC-DDS claimed allowable costs and accurately allocated and
        properly drew down funds; and assess limited areas of the general security controls
        environment. Our audit included the administrative costs SC-DDS claimed during
        Federal Fiscal Years (FY) 2008 and 2009.

        BACKGROUND
        According to Federal regulations,1 disability determination services (DDS) in each State
        or other responsible jurisdiction perform disability determinations under the Social
        Security Administration’s (SSA) Disability Insurance and Supplemental Security Income
        programs. Each DDS is responsible for determining claimants’ disabilities and ensuring
        adequate evidence is available to support its determinations. To make proper disability
        determinations, SSA authorizes each DDS to purchase consultative medical
        examinations and medical evidence of record from the claimants’ physicians or other
        treating sources. SSA pays the DDS for 100 percent of allowable expenditures using a
        State Agency Report of Obligations for SSA Disability Programs (SSA-4513).

        The South Carolina Vocational Rehabilitation Department is SC-DDS’ parent agency
        and provides financial, accounting, and personnel services to SC-DDS. SC-DDS’
        administrative office is located in Columbia, South Carolina. Its three regional offices in
        Charleston, Columbia, and Greenville, South Carolina, process SSA disability claims.

        1
            20 C.F.R. §§ 404.1601 et. seq. and 416.1001 et seq.
Page 2 – Michael Grochowski


In FYs 2008 and 2009, SC-DDS claimed costs of about $32 million and $37 million,
respectively. For additional background and our audit scope and methodology, see
Appendices B and C.

RESULTS OF REVIEW
For FYs 2008 and 2009, the SC-DDS had adequate internal controls over the
accounting and reporting of administrative costs. However, we noted limited exceptions
in which the SC-DDS claimed excess personnel service costs of $983,267 in FY 2009.
Most of the excess costs ($983,502) resulted from one transaction that occurred while
the State was implementing a new accounting system. We believe this is an anomalous
incident that did not affect our overall assessment of the SC-DDS’ internal controls. We
also determined the SC-DDS accurately allocated and properly drew down funds and
had sufficient controls to protect claimant data and ensure the ongoing security of
personnel and property.

OVERSTATED PERSONNEL SERVICE COSTS

In FY 2009, SC-DDS incorrectly claimed $985,267 in personnel service costs. The
overstated charges occurred because the SC-DDS erroneously duplicated a
$983,502 cost item and paid $1,765 in wages to an employee at an incorrect rate.

DUPLICATE COSTS CLAIMED

SC-DDS incorrectly claimed an additional $983,502 in personnel service costs on
the SSA-4513 for the 7th quarter2 of FY 2009. In November 2009, the State of South
Carolina implemented a new State-wide accounting system. Conversion to the new
accounting system required that the SC-DDS adjust its accounting records as late as
the 7th quarter of FY 2009. However, the SC-DDS did not reconcile all the accounting
adjustments it made during the system conversion with costs it claimed on previous
SSA-4513s. As a result, the SC-DDS did not identify a $983,502 cost adjustment it
erroneously duplicated during the system conversion.

The SC-DDS Director agreed that the DDS mistakenly claimed these costs and stated
that the DDS would revise its SSA-4513s to eliminate $983,502 from personnel service
costs. SSA officials informed us that SSA would rescind funding in the same amount
from the SC-DDS operating fund account.




2
  A DDS’ financial reporting period may extend beyond the 4th quarter of a particular FY. Specifically, a
DDS’ FY reporting period remains open until all the FY fund obligations are liquidated or until the end of
the fifth FY after the year for which SSA obligated funds. When a DDS’ financial reporting period extends
beyond the 4th quarter of a FY, the DDS must continue to report quarterly to SSA (on the SSA-4513) its
cumulative costs, including adjustments to previously reported costs. Program Operations Manual
System DI 39506.201.A. and DI 39506.203.B.
Page 3 – Michael Grochowski


Incorrect Wage Costs Claimed

SC-DDS incorrectly claimed $1,765 in wages for one employee in FY 2009. In
March 2009, a DDS employee requested, and DDS management approved, a change
in job position, which included a reduction in salary. However, the Human Resources
Office in the South Carolina Vocational Rehabilitation Department did not record the
change in the payroll system until February 2010. Therefore, the DDS continued to pay
the employee the higher salary for an additional 7 months in FY 2009 and 4 months in
FY 2010.3 As such, the DDS overpaid the employee $1,765 in FY 2009 and $1,009 in
FY 2010—for a total overpayment of $2,774. SC-DDS claimed the costs for the
overpaid wages in FYs 2009 and 2010. SC-DDS’ Director (1) agreed that the DDS
should not have claimed the overpaid costs for reimbursement and (2) stated that the
DDS would revise the appropriate SSA-4513s to reduce the personnel service costs for
the affected periods.

CONCLUSION AND RECOMMENDATIONS
For FYs 2008 and 2009, the SC-DDS had adequate internal controls over the
accounting and reporting of administrative costs, which generally ensured it claimed
allowable costs and accurately allocated and drew down funds. Additionally, the
SC-DDS generally had adequate controls to protect claimant data and ensure the
ongoing security of personnel and property. However, we determined that the SC-DDS
claimed $985,267 in excess personnel service costs in FY 2009 and $1,009 in
FY 2010—for a total of $986,276 in excess personnel service costs. Accordingly, we
recommend the SSA Regional Commissioner:

1. Ensure SC-DDS revises the appropriate SSA-4513s to reduce $983,502 in
   overstated personnel service costs claimed in FY 2009.

2. Continue with plans to rescind $983,502 from the SC-DDS’ FY 2009 operating fund.

3. Ensure SC-DDS revises the appropriate SSA-4513s to reduce $2,774 in personnel
   costs claimed for incorrect wages in FYs 2009 and 2010.

AGENCY COMMENTS
SSA and the South Carolina Vocational Rehabilitation Department agreed with our
recommendations. See Appendices D and E, respectively, for the full text of the
comments.




3
  We did not include FY 2010 in our audit period. However, we included the amount paid during FY 2010
($1,003) in the total overpayment, which SSA should recover.
Page 4 – Michael Grochowski


OTHER MATTERS
The SC-DDS’ generally had adequate controls to protect claimant data and ensure the
ongoing security of personnel and property. However, our review identified several
minor physical security weaknesses. We notified the SC-DDS Director of our concerns.
The Director informed us SC-DDS took corrective actions to remedy some of the
weaknesses and will work with SSA officials to resolve the remaining issues.




                                          Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Background, Scope, and Methodology
APPENDIX C – Schedule of Total Costs Reported on the SSA-4513s—State Agency
             Reports of Obligations for SSA Disability Programs
APPENDIX D – Agency Comments
APPENDIX E – South Carolina Vocational Rehabilitation Department Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                 Appendix A

Acronyms
Act           Social Security Act
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
FY            Fiscal Year
OIG           Office of the Inspector General
Pub. L. No.   Public Law Number
SC-DDS        South Carolina Disability Determination Services
SSA           Social Security Administration
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
SSI           Supplemental Security Income
Treasury      Department of the Treasury
                                                                                  Appendix B

Background, Scope, and Methodology
BACKGROUND

The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), provides benefits to wage earners and their families in the event the wage
earner becomes disabled.1 The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, or disabled.2

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determination services (DDS) in each State, Puerto Rico, and the District of Columbia,
perform disability determinations under both the DI and SSI programs, in accordance
with Federal regulations.3 In carrying out its obligation, each DDS is responsible for
determining claimants’ disabilities and ensuring adequate evidence is available to
support its determinations. To assist in making proper disability determinations, SSA
authorizes each DDS to purchase medical examinations, x-rays, and laboratory tests on
a consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments System to pay for
program expenditures. Funds drawn down must comply with Federal regulations4 and
intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990.5 An advance or reimbursement for costs under
the program must comply with Office of Management and Budget Circular A-87, Cost
Principles for State, Local, and Indian Tribal Governments. At the end of each quarter
of the Fiscal Year (FY), each DDS submits a State Agency Report of Obligations for
SSA Disability Programs (SSA-4513) to account for program disbursements and
unliquidated obligations.
1
  (OCIG Comment – Footnotes 1 and 2 are new – my first recommendation would be to simply delete
them – however, if you wish to keep them then please revise footnote 1 as follows)»The Social Security
Act § 201 et seq,, 42 U.S.C. § 401 et seq.
2
 (OCIG Comment - See above comment)»The Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et
seq.
3
    20 C.F.R. §§ 404.1601 et. seq. and 416.1001 et seq.
4
    31 C.F.R. Part 205.
5
    Pub. L. No. 101-453.


                                                   B-1
The South Carolina Disability Determination Services (SC-DDS) performs work for the
South Carolina Retirement System and the South Carolina State Comptroller General’s
Office. For FYs 2008 and 2009, this work averaged about 2.5 percent of all claims
processed by the DDS.

SCOPE

To accomplish our objectives, we:

   Reviewed the administrative costs SC-DDS reported on its SSA-4513s for
    FYs 2008 and 2009.
   Reviewed applicable Federal laws, regulations, and pertinent parts of SSA’s
    Program Operations Manual System and other criteria relevant to administrative
    costs claimed by SC-DDS and the drawdown of the SSA program appropriations.
   Interviewed staff at South Carolina Department of Vocational Rehabilitation and
    SC-DDS.
   Evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities.
   Reconciled State accounting records to the administrative costs reported by
    SC-DDS on the SSA-4513s for FYs 2008 and 2009.
   Examined the administrative expenditures (Personnel, Medical Service, and All
    Other Non-personnel costs) incurred and claimed by SC-DDS for FYs 2008 and
    2009 on the SSA-4513s.
   Examined the indirect costs SC-DDS claimed for FYs 2008 and 2009 and the
    corresponding Cost Allocation Plans.
   Compared the amount of SSA funds drawn to support program operations to the
    allowable expenditures reported on the SSA-4513s.
   Determined whether the SC-DDS excluded the cost of non-SSA work from the costs
    it claimed on the SSA-4513s for FYs 2008 and 2009.
   Conducted limited general control testing—which encompassed reviewing the
    physical access security within the DDS.

The electronic data used in our audit were sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling them with
the costs claimed on the SSA-4513s. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit at SC-DDS in Columbia and Greenville, South Carolina, and
the Office of Audit in Atlanta, Georgia, from September 2010 through January 2011.
We conducted this performance audit in accordance with generally accepted


                                           B-2
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

METHODOLOGY

Our sampling methodology encompassed the four general areas of costs as reported on
the SSA-4513s: (1) Personnel, (2) Medical, (3) Indirect, and (4) All Other
Non-personnel costs. We obtained computerized data from SC-DDS for FYs 2008 and
2009 for use in statistical sampling.

Personnel Costs

We randomly selected 1 of the 24 pay periods in FY 2009. We then selected a random
sample of 50 employees for review and testing of the payroll records. We tested regular
and overtime payroll and hours for each individual selected. We verified that approved
time records were maintained and supported the hours worked. We tested payroll
records to ensure the SC-DDS correctly paid employees and adequately documented
these payments.

Medical Costs

We sampled 50 medical evidence of record and consultative examination records in
FYs 2008 and 2009 using a proportional random sample. We also selected an
additional 5 medical evidence of record and 5 consultative examination items in FY
2009 from the 37 medical cost accounting adjustments that resulted from the
implementation of the new South Carolina State-wide accounting system. We
determined whether sampled costs were properly reimbursed.

Indirect Costs

We reviewed Indirect costs in 2 quarters in both FYs 2008 and 2009. We tested all
indirect cost pools included in the cost allocation plan. We ensured all indirect cost
pools were allocated in accordance with the cost allocation plans for FYs 2008
and 2009. We determined the allocation method was reasonable for the type of
expense allocated.

All Other Non-Personnel Costs

We stratified All Other Non-personnel costs into eight categories: (1) Contracted Costs,
(2) Electronic Data Processing Maintenance, (3) Equipment Purchases and Rental,
(4) Communications, (5) Applicant Travel, (6) DDS Travel, (7) Supplies, and
(8) Miscellaneous. We selected a stratified random sample of 50 items from each FY




                                            B-3
based on the percentage of costs in each category. For Occupancy costs, in FYs 2008
and 2009, we selected one monthly rental charge for each of the four SC-DDS office
locations.

General Security Controls

We conducted limited general security control testing. Specifically, we reviewed the
following eight areas relating to general security controls: (1) Perimeter Security,
(2) Intrusion Detection, (3) Key Management, (4) Internal Office Security, (5) Equipment
Rooms, (6) Security Plan, (7) Continuity of Operations, and (8) Other Security Issues.
We determined whether the general security controls the DDS had in place were
satisfactory.




                                          B-4
                                                                Appendix C

Schedule of Total Costs Reported on the
SSA-4513s—State Agency Reports of
Obligations for SSA Disability Programs

            South Carolina Disability Determination Services
                  FISCAL YEARS (FY) 2008 and 2009 COMBINED
                                                 UNLIQUIDATED        TOTAL
      REPORTING ITEMS          DISBURSEMENTS     OBLIGATIONS     OBLIGATIONS
Personnel                         $40,221,017             $0      $40,221,017
Medical                             17,253,045        20,000        17,273,045
Indirect                             5,147,471             0         5,147,471
All Other                            7,310,056         3,267         7,313,323
                   Subtotals      $69,931,589       $23,267       $69,954,856
Less Cost of Non-SSA Work         ($1,663,838)            $0      ($1,663,838)
                     TOTALS       $68,267,751       $23,267       $68,291,018
                                       FY 2008
                                                 UNLIQUIDATED       TOTAL
      REPORTING ITEMS          DISBURSEMENTS     OBLIGATIONS     OBLIGATIONS
Personnel                         $18,575,667            $0       $18,575,667
Medical                             7,742,808             0         7,742,808
Indirect                            2,587,232             0         2,587,232
All Other                          $3,536,458             0         3,536,458
                   Subtotals      $32,442,165            $0       $32,442,165
Less Cost of Non-SSA Work          ($822,461)            $0        ($822,461)
                     TOTALS       $31,619,704            $0       $31,619,704
                                       FY 2009
                                                 UNLIQUIDATED       TOTAL
      REPORTING ITEMS          DISBURSEMENTS     OBLIGATIONS     OBLIGATIONS
Personnel                         $21,645,350             $0      $21,645,350
Medical                             9,510,237         20,000        9,530,237
Indirect                            2,560,239              0        2,560,239
All Other                           3,773,598          3,267        3,776,865
                   Subtotals      $37,489,424        $23,267      $37,512,691
Less Cost of Non-SSA Work          ($841,377)             $0       ($841,377)
                     TOTALS       $36,648,047       $23,267       $36,671,314
                                                                     Appendix D

Agency Comments

MEMORANDUM

Date:       April 19, 2011                          Refer to: S2D4

To:         Inspector General                       (D BH 21419)

From:       Regional Commissioner
            Atlanta

Subject: Administrative Costs Claimed by the South Carolina Disability Determination
Services (A-04-10-10178)--REPLY

Thank you for the opportunity to comment on the recommendations presented in the
draft audit report on administrative costs claimed by the South Carolina Disability
Determination Services (DDS) for Fiscal Years (FYs) 2008 and 2009. Overall, the audit
was detailed and thorough and we agree that the DDS has adequate controls in place
to ensure the security of personnel and property. In addition, we concur with the audit
findings that disbursements made by the South Carolina Vocational Rehabilitation
Department (SCVRD), the DDS’s Parent Agency, were generally allowable and
supported by the required documentation.

There were, however, several deficiencies found during the audit review in connection
with personnel costs, which SCVRD has now corrected. Specifically, the three
recommendations resulting from the audit findings, and our comments on each, are
summarized below:

1. Ensure the South Carolina DDS revises the appropriate State Agency Report
   of Obligations for SSA Disability Programs (SSA-4513) to reduce $983,502 in
   overstated personnel service costs claims in FY 2009.

      The State of South Carolina implemented a new statewide accounting system
      (SCEIS) in November 2009, which resulted in some accounting adjustments as late
      as the 4th quarter of 2009. Due to start-up problems with the new SCEIS system, a
      duplicate reporting error of $983,502 between personnel and indirect costs was
      mistakenly claimed by SCVRD. This erroneous adjustment had not been
      communicated with the DDS fiscal staff at the time, plus much of the new system
      was untested and unfamiliar at that time. The error has been corrected and a
      revised SSA-4513 for FY 2009 submitted in January 2011, removing the $983,502
      overstatement in obligations.



                                           D-1
   This erroneous charge should not occur again because the complexities inherent to
   the initial start-up of the SCEIS system, and the initial “push down” of data into the
   system, have now been fixed. Reconciliations in all accounting records were made
   current and duplications deleted. In addition, quarterly meetings between the DDS
   and SCVRD fiscal staff have now been implemented to ensure improved
   communications.

2. Continue with plans to rescind $983,502 from the South Carolina DDS’s FY
   2009 operating fund.

   As noted above, an updated SSA-4513 was submitted in January 2011 to eliminate
   the duplicate $983,502 charge in personnel costs, with the operating fund
   subsequently reduced due to the removal of this obligation. SSA issued a revised
   SSA-872 with corrected/reduced funding for FY 2009 to SCVRD, along with a letter
   (revision #15), on March 16, 2011.

3. Ensure that the South Carolina DDS revises the appropriate SSA-4513s to
   reduce $2,774 in personnel costs claimed for incorrect wages in FYs 2009 and
   2010.

   In March 2009, a DDS employee requested a job duty change that resulted in a
   reduction in pay; however, SCVRD did not make the appropriate payroll adjustment
   until February 2010. This failure resulted in the individual receiving excess salary
   monies of $1,765 in 2009 and $1,009 in 2010. SCVRD has now submitted revised
   SSA-4513s for both FYs to reduce personnel costs for the overpaid amounts. SSA
   issued updated SSA-872s to SCVRD for FY 2009 and FY 2010 on April 5, 2011.
   Finally, controls are now in place to ensure that all payroll actions, include job
   changes resulting in reduced salaries, are coordinated and double-checked between
   the DDS and SCVRD.

Staff questions concerning this response may be directed to Barbara Hites in the
Atlanta Region’s Center for Disability at 404-562-1419.


                                  Michael W. Grochowski




                                           D-2
                                     Appendix E

South Carolina Vocational Rehabilitation
Department Comments
E-1
E-2
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director

   Frank Nagy, Audit Manager

Acknowledgments

In addition to those named above:

   Valerie Ledbetter, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-04-10-10178.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
